         /'                                          -
    ,'
                                               I.
                                                                                                                       I/

                                                                  NATIONAL SCIENCE FOUNDATION
                                                                   OFFICE OF INSPECTOR GENERAL
I



               .                                                     OFFICE OF INVESTIGATIONS

                                                           CLOSEOUT MEMORANDUM

              Case Number: 1-02050021                                                                             Page 1 of 1
                                                                                                                            I




                   In May 2002, Defense Criminal Investigative Service (DCIS) notified us of an ongoing
                   investigation of   1                                      ,
                                                                       (the company) involving allegations ;from a
                   former employee who claimed that it was common practice for the company employees to be
                   switched or stacked on SBIR projects, and specific allegations involving mischarging to DOE
                   and DoD awards. We identified approximately 100 SBIR awards from DoD, DOE, NASA,
                   USDA and NSF to the company during the previous six years. Based on the amount of
                   government-wide funding, including significant NSF funding, and the allegations of questionable
                   business practices, we joined the on-going investigation to identify possible duplicate funding of
                   SBIR awards.

                    This office then obtained electronic copies of all available abstracts of the company S B q awards
                    from the various Federal agencies. Review of the abstracts found eleven different research areas
                                                                                                               '
                    that contained overlapping research awards from DoD, DOE, NASA, USDA and NSF.

                    To test whether the company had received duplicate funding of SBIR awards and submitted
                    duplicate research results to multiple agencies, we requested and received SBIR reports from
                    DOD, DOE, and NSF. We obtained 20 SBIR reports from NSF program files; we obtained 24
                    DoD SBTR reports from the Defense Technical Information Center; we obtained 10 reports from
                    DOE Office of Science and Technical Information.'

                   We reviewed and compared the 54 SBIR reports submitted by the company to DoD, DOE; and
                   NSF. We found overlapping research reports, specifically involving DoD and DOE projects.
                   However, we did not identify duplicate research results submitted by the company to NSF:'
                   Since, NSF only funds fixed price SBIR awards, it would not be beneficial to continue
                   investigation involving possible mischarging to SBIR awards.

                    DOE-OIG agreed to notify us if their future findings involve any NSF issues.

                    Accordingly, this case is closed.



                                *




                    1
                      We identified and requested 26 reports from DOE SBIR awards but DOE could not locate 16 reports. This
                    information was forwarded to DOE-OIG.




          NSF OIG Form 2 (1 1/02)
